Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit Report - A-05-95-00016
Office of Audit
Payments to Surviving Spouses
at Retirement Age - A-05-95-00016 - 3/28/97
This report presents the results of our audit of payments
to surviving spouses at retirement age (A-05-95-00016). Our audit
focussed on whether surviving spouses were receiving the highest
benefit due them at retirement age and whether SSA identified and
notified eligible survivors about those higher benefits at age 65.
We estimate there were 539 surviving spouses who attained
age 65 in December 1992 and were entitled to, but were not receiving,
higher retirement benefits. However, our statistical population was
limited to those who became age 65 during 1 month, December 1992.
The number of widows entitled to retirement benefits should grow
significantly in future years with the increase in women`s participation
in the work force.
SSA requires surviving spouses to reapply for retirement
benefits when their retirement benefit becomes higher than their
survivors benefit. We identified 7,694 surviving spouses who
could potentially qualify for retirement benefits and also attained
age 65 in December 1992. A sample of 100 cases (all
were widows) disclosed that 16 were eligible for higher retirement
benefits. However, seven of these widows did not apply for the retirement
benefit and, therefore, were not receiving the highest benefit for
which they were eligible. The widows were due increased monthly benefits
with an average increase of 15.7 percent. The widows were unaware
of the higher retirement benefit and, at their retirement age, SSA
did not notify them.
SSA`s system of notifying beneficiaries about their
eligibility for a higher retirement benefit was not fully effective.
We found documentation that SSA prepared diary alerts for only 3
of the 16 survivors which indicated that diaries were made for them
to return to SSA and apply for retirement benefits. One of the documents
was found in a case folder for a widow who applied and two were found
in case folders for widows who did not apply. Additionally, we found
that SSA does not have a system capability to monitor potential retirement
benefits for widowed beneficiaries.
We are recommending that SSA improve its procedures
to assist surviving spouses in receiving the highest benefit for
which they are eligible.
SSA agreed that it could improve its process for informing
surviving spouses when they are eligible for higher benefits at retirement
age. SSA`s complete response to our recommendations is included
as Appendix B. SSA expects the new process to be implemented by May
1997.
Back to top
BACKGROUND
Title II of the Social Security Act provides benefits to surviving
spouses who are over age 60 based on their deceased spouses
earnings. Title II also provides that individuals age 62
or older with sufficient earnings can be eligible for retirement
benefits.
Generally, an application for any title II benefit includes
all title II benefits for which an applicant may be entitled.
However, when a surviving spouse under age 62 applies for title
II benefits, the spouse is limited to survivors benefits. The reason
for this limitation is that the spouses are not eligible for retirement
benefits until they reach the age of 62. If the spouses are age 62
but under age 65, they may be eligible to receive a reduced retirement
benefit based on their own earnings. Surviving spouses who elect
not to receive reduced retirement benefits must reapply to obtain
retirement benefits, normally when they attain full retirement age,
currently 65.
When a surviving spouse, 62 years or older, files for survivors
benefits and delays filing for retirement benefits, SSA procedures
require that the field office setup an alert date on the individual`s
record. The alert is used as a reminder for the field office to contact
the beneficiary when he or she may be eligible for higher benefits
as a retiree.
SCOPE
The audit was conducted in accordance with generally accepted government
auditing standards. The objectives of our audit were to determine
if surviving spouses were receiving the highest benefit at retirement
age for which they were eligible and whether SSA was effective in
identifying and notifying affected individuals.
To achieve our objectives we:
Reviewed SSA policies and procedures for processing claimants
eligible for both survivors and retirement benefits.
Interviewed SSA personnel responsible for processing and accounting
for survivors benefits.
Reviewed SSA beneficiary records, case folders, and accounting
records.
Referred eligible widows in our sample who had not reapplied
for retirement benefits at age 65 to SSA field staff for personal
contacts. The purpose was to determine why these beneficiaries
had not applied for retirement benefits that were higher than their
survivors benefits.
We identified 7,694 beneficiaries receiving survivors benefits
who had sufficient earnings for retirement eligibility and attained
age 65 in December 1992. We selected a random sample of 100 of
these beneficiaries to determine if they were receiving the highest
benefit for which they were eligible.
We conducted our audit at the Harold Washington Social Security
Center in Chicago, Illinois, and SSA headquarters in Baltimore, Maryland.
The audit was conducted between February 1995 and May 1996.
Back to top
RESULTS OF
AUDIT
SAMPLE RESULTS
We determined that 16 of the 100 widows in our sample
were receiving survivors benefits, but were eligible for higher retirement
benefits. Nine of the widows returned to SSA field offices at or
before age 65 and applied for retirement benefits. The remaining
seven did not apply for retirement benefits, so we asked SSA field
staff to contact them. The staff contacted six of the seven widows
and, as a result, all applied for the higher retirement benefit.
The other person had died before contact was initiated. The widows
were due increased monthly benefits of $5 to $83, with
an average benefit increase of $40 or 15.7 percent.
We also asked that the SSA staff contacting the six widows determine
why they had not applied for the higher retirement benefit. The widows
stated that they either did not remember or did not understand what
was said to them regarding potential retirement benefits when they
applied for survivors benefits. As examples, one widow replied that
she was so upset at the time that she remembered nothing. Another
individual said that she thought that once she filed it was forever;
she never knew she could switch to retirement benefits. All six widows
replied that they were not contacted near their 65th birthday regarding
retirement benefits.
We found evidence that SSA had informed three of the six widows
about reapplying for retirement benefits, when they applied for survivors
benefits. One individual, when questioned, said that if she was informed
about retirement when she first applied for benefits, she did not
remember and did not understand she needed to reapply. There was
evidence in two other case folders that widows were told at the time
of application to return to the field office and reapply for retirement
benefits at age 65.
SSA PROCEDURES
SSA has procedures for employees to explain to beneficiaries that
survivors benefits do not include retirement benefits. Surviving
spouses also sign applications which include a statement that retirement
benefits were not included in the survivor`s application. When
a surviving spouse applies for survivors benefits after age 62,
it is more likely that retirement benefits will be discussed because
they are also eligible at that time for reduced retirement benefits.
However, if a surviving spouse files an application between age 60
and 62, it is possible that retirement benefits may not be discussed
because at the time of the application, he or she may not be eligible
for retirement.
In any case, SSA procedures place the responsibility for filing
the application for retirement benefits on the surviving spouse.
It is apparent from our sample results that a significant portion
of these beneficiaries do not apply for retirement long after filing
for survivors benefits. The SSA should identify and provide assistance
to these individuals.
The SSA has established a system to alert the field offices when
beneficiaries need to be contacted in the future. However, our sample
indicated that this system was ineffective. We found documentation
that diary alerts were made only in 3 of the 16 sampled case folders
for widows eligible for higher retirement benefits. One of the documents
was in a widows folder who had applied for retirement and two
from widows who did not.
There are several reasons why this SSA process is not effective.
First, the diary must be processed manually and is up to 5 years
old when SSA needs to take action. These contribute to errors and
delays in the alert process. Second, the diary may not be established
for surviving spouses who applied before age 62 and were not
eligible for retirement under their own record. However, if the widow
is working, they may be eligible for retirement in the future and
a new benefit comparison will be necessary at a later time.
Last, SSA does not have the systems capability of monitoring potential
retirement benefits for widowed beneficiaries. SSA lacks the ability
to calculate the potential retirement benefit, compare the survivors
and retirement benefits, and send a notice to those who should apply
for higher retirement benefits.
The SSA has the Personal Earnings and Benefit Estimate Statement
(PEBES) that is used to inform individuals of potential retirement
benefits at age 65. The SSA originally intended to send statements
to title II beneficiaries who were not receiving benefits on
their own earnings. This would have included the widows we identified.
However, SSA decided not to issue these statements due to budget
and workload considerations. This decision excludes surviving spouses
on survivors benefits from receiving a PEBES notifying them of potentially
higher retirement benefits.
WOMEN IN THE WORK FORCE
The
number of women affected by this potential loss of retirement benefits
will increase in future years due to the increase in the number of
women working. The last 30 years have seen a significant increase,
according to the U.S. Bureau of the Census, Statistical Abstract
of the United States: 1995. In 1960, 21.9 million
women worked. By 1990, the number more than doubled to 53 million
working women. It is inevitable that the number of women who will
be eligible for retirement benefits will continue to increase in
the future. Widows may continue to receive lower benefits than they
are eligible for unless they are advised of the alternatives. The
SSA needs to inform surviving spouses of their potential retirement
benefits and the need for a separate retirement application.
Back to top
RECOMMENDATIONS
We recommend that SSA inform surviving spouses when they are eligible
for retirement benefits which are higher than their survivors benefits.
This information could be disseminated through any one of the following
mechanisms:
Attaching information to a current notice or as a special notice
specific to this situation.
Sending a PEBES statement to surviving spouses with qualified
earnings.
Using an automated alert system that would monitor surviving
spouses potentially eligible for higher retirement benefits and
generate alerts to notify them to apply for those benefits.
SSA Comments: SSA agreed that it could improve its process
for informing surviving spouses when they are eligible for higher
benefits at retirement age. SSA expects the new process to be implemented
by May 1997.
David C. Williams
Back to top
APPENDICES
APPENDIX A
SAMPLE ANALYSIS AND PROJECTION ESTIMATES
Population: 7,694 widows and widowers who may qualify
for higher retirement benefits. Our population consisted of those
who attained age 65 in December 1992.
Sample Size: 100 (all were widows)
Sample Selection: Random
Characteristics: The number of widows eligible for higher
retirement benefits.
Number Identified in Sample: 16 widows identified as
having higher retirement benefits.
Sample Results: 9 switched to retirement benefits before
or at age 65.
7 remained on survivors benefits at age 65.
Projected Number: 539 individuals projected to be eligible
for higher retirement benefit, but still receiving survivors benefits.
90 percent Confidence Mean is Between: Lower limit --
257 individuals
Upper limit -- 978 individuals
Back to top
APPENDIX
C
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
Roger J. Normand, Director, Program Audits (North)
Ross Anderson, Team Leader
Sheri Fulcher, Senior Auditor
Richard Dubin, Auditor
Robert Lenz, Auditor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified